          AUDIT OF
LIQUIDATION OF DISASTER LOANS



         Report Number: 7-26
        Date Issued: June 1, 2007
      U.S. Small Business Administration
      Office of Inspector General                     Memorandum
    To:    Grady Hedgespeth                                           Date:   June 1, 2007
           Director of Financial Assistance
           /S/ original signed
  From:    Debra S. Ritt
           Assistant Inspector General for Auditing
Subject:   Audit of Liquidation of Disaster Loans
           Report No. 7-26

           This report presents the results of the Office of Inspector General’s (OIG) audit of
           the process for liquidating delinquent disaster loans. The objective of the audit was
           to determine if the Small Business Administration (SBA) maximized its recovery
           of delinquent disaster loans through collateral liquidations and/or by referral to the
           U.S. Treasury. The audit work was conducted from July 2005 to January 2006,
           but the written report was delayed due to higher priority work. We believe that the
           results of this audit are still pertinent and the recommendations should improve the
           servicing of delinquent loans.

           In performing our audit, we randomly selected five samples of secured and
           unsecured disaster loans in various stages of collection as of July 26, 2005. We
           examined SBA loan files maintained on SBA’s information systems, conducted
           site visits at the Santa Ana Disaster Loan Liquidation Center, the El Paso and
           Birmingham Servicing Centers, and interviewed SBA officials in the Office of
           Financial Assistance. A more detailed description of our audit scope and
           methodology is provided in Appendix I.

           Based upon our sample results, our audit showed that SBA did not maximize
           recovery on at least $360.3 million sent to SBA’s Liquidation Center and the U.S.
           Treasury because of miscoded loans, data system errors, and continued servicing
           activities after delinquent loans were transferred to the Disaster Loan Liquidation
           Center.

           BACKGROUND

           SBA provides direct disaster loans to help homeowners, renters, businesses and
           nonprofit organizations return to pre-disaster condition. SBA disaster loans are
the primary form of Federal assistance for non-farm, private sector disaster losses
and are the only form of SBA assistance not limited to small businesses. SBA
disaster loans are processed, serviced and liquidated at six centers 1 throughout the
Nation.

Once loans become delinquent, SBA attempts to bring them into current status by
contacting the loan recipients and establishing payment arrangements. When
these attempts are not successful, the loans are classified as either “charged-off” or
“in liquidation.” Unsecured loans that are charged-off and over 180 days
delinquent are sent to Treasury, while secured loans and those in liquidation are
referred to SBA’s Disaster Loan Liquidation Center in Santa Ana, California. The
liquidation center may continue to attempt a workout with the borrower; however,
when this is not possible, the center is responsible for identifying, assessing,
protecting, and taking action against available collateral and additional assets.
When the remaining loan balance is determined to be uncollectible, a portion or all
of the loan balance may be charged-off and removed from SBA’s active receivable
accounts. The charged-off loan would then be referred to Treasury for further
collection action.

The Treasury attempts further recovery through its two collection programs—
Treasury Offset Program (TOP) and its Servicing Program. Under TOP, agencies
may collect delinquent debt through Treasury offsets against Federal payments
due a debtor, such as income tax refunds, social security, and other Federal
payments. The Treasury Servicing Program uses offsets and a variety of other
debt collection tools, such as demand letters, referrals to private collections
agencies, and telephone calls to debtors to collect on delinquent debt.

In accordance with the Debt Collection Act of 1996 (the Act), agencies not
designated by the Office of Management and Budget (OMB) as a debt collection
center are required to transfer loans that are 180 days or more past due to the
U.S. Treasury for additional collection activities.

In January 2000, OMB granted SBA an exemption from transferring loans that are
180 days or more past due to the U.S. Treasury provided that the loans are under
active repayment arrangements or the collateral/assets associated with the loan
will be pursued by SBA. However, once SBA determines that a repayment
arrangement is not feasible and has completed all liquidation and/or foreclosure
activities, the remaining debt must be referred to the U.S. Treasury in accordance
with the Act.

1
    The Birmingham Home Loan Servicing Center, El Paso Home Loan Servicing Center, Santa Ana Home
    Loan Servicing Center, Fresno Business Loan Servicing Center, Little Rock Business Loan Servicing
    Center, and the Santa Ana Liquidation Center.


                                                    2
RESULTS IN BRIEF

SBA did not maximize recovery on at least $360.3 million in delinquent disaster
loans that were sent to SBA’s Disaster Liquidation Center and the U.S. Treasury.
Specifically, SBA:

      • Did not actively pursue a projected $261.5 million in delinquent loans
        because of conflicting guidance in its operating procedures;

      • Did not transfer a projected $24.7 million in delinquent loans to
        Treasury because the loans were improperly coded; and

      • Did not refer to Treasury Servicing all responsible parties on a projected
        $74.1 million of charged-off loans because loans were not coded
        properly and loan details, such as the name and identification numbers,
        were not entered into the Portfolio Management Treasury Offset System
        (PMT) database.

We recommend that SBA revise Standard Operating Procedure (SOP) 50 51 2,
Loan Liquidation and Acquired Property, and clarify existing guidance to better
explain the requirements of the Debt Collection Act. We further recommend that
SBA implement controls to ensure the liquidation of collateral and assets are
actively pursued to the fullest extent possible at the Disaster Loan Liquidation
Center and that loans are properly coded and transferred to Treasury and/or the
center in accordance with the Debt Collection Act.

Management was generally responsive to the audit findings and recommendations,
disagreeing with recommendation 1 and agreeing with recommendations 2
through 7. Management did not believe that a revision to the SOP is needed or
warranted because it has long been SBA’s loan servicing policy that cooperative
disaster victims who become delinquent on their loans be given every opportunity
to repay their debts through restructured obligations wherever possible.
Management's comments are discussed in more detail in the Agency Comments
section of the report and the response is presented in its entirety in Appendix IV.
Our corresponding comments are presented in the OIG Response section of this
report. We will pursue resolution of recommendation 1 through the audit
resolution process.




                                         3
RESULTS
Collateral and Assets Were Not Actively Pursued During Liquidation of at
least $261.5 Million in Delinquent Disaster Loans

Standard Operating Procedure (SOP) 50 51 2, Loan Liquidation and Acquired
Property, requires that liquidation actions on delinquent disaster loans maximize
recoveries in a minimum amount of time. However, SBA continued to service
loans transferred to the Disaster Loan Liquidation Center instead of liquidating
collateral and delayed liquidations actions because of inadequate staffing levels.

Our review of 59 statistically sampled loans 2 disclosed that SBA had not pursued
$8.5 million in collateral and/or additional assets on 46 loans with an outstanding
balance of $2.8 million. 3 Collateral or available assets for the remaining 13 loans
were pursued, released, or exempt from collection activities. Based on the sample
results, we estimate that SBA did not pursue recovery of collateral and assets
associated with at least $261.5 million in delinquent disaster loans. According to
SOP 50 51 2, once a payment workout agreement (workout) has been determined
infeasible, the non-performing loan should be transferred to liquidation to
maximize recovery through the liquidation of collateral and available assets.
However, the SOP also requires liquidation personnel to continue to negotiate
workouts with delinquent borrowers to re-establish payments on delinquent loans.
Consequently, the SOP provides conflicting guidance to loan specialists that
emphasizes servicing activities over liquidation.

During our audit, we also found that only 16 employees were assigned to work the
nearly 4,000 loans at the center. The 16 employees consisted of 8 loan specialists,
4 assistants, and 4 contractors. This staffing level adversely impacted the center’s
ability to effectively locate, assess, protect, and ultimately liquidate collateral and
available assets. Following our audit, a solicitation was submitted to outsource the
liquidation function through the OMB A-76 4 contracting process. The contract
was awarded to the Agency’s employees, referred to as the Most Efficient
Organization (MEO), on March 31, 2006, and included an increase in staffing of
up to 48 employees based on the actual volume of liquidation cases. Currently,
the MEO is in the process of hiring additional staff to augment its present staffing
of 12 loan specialists, assistants, and contractors.


2
  Loans were randomly sampled from a universe of 4,536 delinquent loans at the center.
3
  Collateral and asset values are based on the values reported at the time of loan application. Although the
  collateral and/or additional assets may exceed the outstanding balance, SBA would only collect the
  remaining loan balance.
4
  OMB Circular No. A-76 establishes Federal policy for the performance of recurring commercial activities
  and encourages public and private competition.


                                                     4
At least $24.7 Million in Delinquent Loans Were Not Transferred to Treasury
for Collections Because of Improper Coding

Our audit of 104 statistically sampled loans from a universe of 3,074 delinquent
loans disclosed that 55 loans totaling about $3.9 million had not been transferred
to Treasury as required by the Debt Collection Act. The 55 loans included
34 unsecured loans at the servicing and field offices and 21 secured loans at the
Santa Ana Liquidation Center that were improperly coded as workouts. Based on
the sample results, we estimate that SBA missed the opportunity for additional
recoveries of at least $24.7 million on loans that were not transferred to Treasury
for collections. The Act requires all agencies not designated by OMB as debt
collection centers to refer all loans that are 180 days past due to Treasury for
collection. On January 3, 2000, Treasury exempted SBA from the mandatory
transfer requirement for loans in active workout status. However, once SBA
determines that a workout is not feasible and, in the case of collateralized loans,
completes its liquidation/foreclosure, any remaining debt is subject to the
mandatory transfer provision of the Act.

Loans were not referred to Treasury because the servicing centers and field offices
improperly coded them in the Loan Accounting System as workouts. However, in
order to meet the requirements of a workout as stated in SOP 50 50 4, SBA must:
(1) document the workout in a modification to the loan terms; (2) perform a
financial analysis; (3) conduct a legal review; 5 (4) assess collateral; and
(5) evaluate the tax status of the borrower. If the obligor negotiates a workout
agreement, SBA codes the loan as a workout, which will prevent the loan from
being referred to Treasury. The 55 loans that were improperly coded did not meet
the requirements for a workout. SBA did not identify the miscoding of these loans
because it did not routinely review loans in a workout status to ensure that the
borrowers were meeting the requirements of the workout agreements. The
improper use of the workout code delayed referral of the loans to Treasury for
further collection as required by the Debt Collection Act.

SBA Missed Collection Opportunities on at Least $74.1 Million by Not
Referring All Loans and Responsible Parties to Treasury

Procedural Notice 5000-619, Treasury Debt Collection,6 requires that all charged-
off loans be referred to both TOP and Treasury Servicing. The Notice also
requires that information on all responsible parties on collectable debt be made
available to TOP. However, our review of 118 statistically sampled loans with an
outstanding balance of about $2.2 million from a universe of 16,582 charged-off

5
    Not required for unsecured loans.
6
    Although the notice has expired, SBA continues to apply the policy.


                                                      5
loans disclosed that SBA did not fully transfer 88 loans with an outstanding
balance of $1.5 million to Treasury. Based on the sample results, we estimate that
SBA missed an opportunity to collect at least $74.1 million because loans and all
responsible parties were not fully referred to Treasury.

Of the 88 loans, 58 with an outstanding balance of $363,405 were miscoded as
“65” in the Loan Accounting System, causing them to be referred only to TOP
(see Appendix II). Instead, the referral coding should have been left blank so that
the loans would go to both TOP and Treasury Servicing. Field personnel we
interviewed believed Code 65 would refer the loans to TOP and Treasury
Servicing collections or were not aware that there were two Treasury programs.
This occurred because detailed instructions for referral have not been incorporated
into SOP 50 50 4. Subsequent to the audit field work, SBA officials informed us
that the center no longer uses Code 65.

The audit also disclosed that SBA did not forward names and identification
numbers for all co-obligors and guarantors on the other 30 charged-off loans with
an outstanding balance of $1.1 million, preventing Treasury from contacting all
responsible parties on loans transferred by SBA (see Appendix III). Pursuant to
Procedural Notice 5000-619, Treasury Debt Collection, information on all
responsible parties on legally collectable debt that is 180 days past due must be
made available to TOP. For loans that are charged-off and/or 180 days past due,
SBA enters the names and identification numbers of all co-obligors and guarantors
in its database, Portfolio Management Auxiliary Name and Address System
(PMN). Once the data is entered, it should be automatically transferred to another
SBA database, the Portfolio Management Treasury Offset System (PMT), where it
is made available to Treasury for offset collections through TOP.

For 27 of the 30 loans, all the necessary information for the co-obligors and
guarantors was entered into the PMN system, but only one of the names or
identification numbers was found in the PMT database. For the remaining three
loans, the names and identification numbers for all co-obligors and guarantors
were not entered into the PMN database system. Consequently, the information in
SBA’s databases were not transferred to Treasury. Officials at SBA’s Treasury
Liaison Group stated that they were aware of the database issues, but had been
unable to resolve the problem. Additionally, the Office of Financial Assistance
had not established procedures or assigned responsibility for verifying the transfer
of information between the databases.




                                         6
RECOMMENDATIONS

We recommend that the Director, Office of Financial Assistance:

   1. Revise SOP 50 51 2 to instruct liquidation staff to pursue liquidation of
      loan assets instead of servicing and workouts.

   2. Develop and implement procedures to ensure that loans coded as workouts
      are in compliance with the requirements of SOP 50 50 4.

   3. Require Servicing and Liquidation Center staff to routinely review all
      charged-off loans designated as workouts to determine whether the workout
      designation is appropriate.

   4. Develop and implement procedures, which ensure that the Treasury referral
      code at servicing centers is left blank so that loans requiring both TOP and
      Treasury Servicing are referred to Treasury for collections as required.

   5. Develop and implement procedures to ensure that all the names and
      identification numbers of delinquent borrowers are entered into the PMN
      database and transferred to the PMT system for referral to Treasury.

   6. Incorporate detailed instructions for transferring charged-off loans to
      Treasury into SOP 50 50 4.

   7. Follow up on the 88 loans that were miscoded or which did not identify all
      responsible parties to ensure that Treasury was sent the correct or missing
      information.

AGENCY COMMENTS

On April 5, 2007, we provided SBA with a draft of the report for comment. On
May 18, 2007, SBA provided its formal response, which is contained in its entirety
in Appendix IV. SBA disagreed with recommendation 1, agreed with
recommendations 2 through 7, and provided comments on several issues.
However, management did not supply sufficient details to assess whether further
action is required for recommendation 2 and did not provide target dates for
completing proposed actions for recommendations 3 through 7.

Management disagreed with recommendation 1 to revise SOP 50 51 2 to instruct
liquidation staff to pursue liquidation of loan assets instead of servicing and
workouts. SBA explained that cooperative borrowers who become 180 days
delinquent and have their loans transferred to the Santa Ana Center should still be

                                         7
given the opportunity to repay their debts through workouts if feasible. SBA
further stated that this determination can be made promptly and if the borrower
cannot or will not comply with reasonable repayment requirement, enforced
liquidation will be pursued. SBA also stated that it has adopted a more disciplined
and analytical approach towards deciding whether to work with the borrower or
pursue liquidation, which has reduced the number of loans in liquidation.

Management agreed with recommendation 2 that SOP requirements for workouts
should be followed and stated that adequate guidance and oversight exists in the
centers for compliance with the recommendation. Management noted that the
primary SOPs applicable to disaster loans in liquidation status at NDLRC are SOP
50 51 2, Loan Liquidation and Acquired Property, and SOP 50 52 1, Consumer
Loan Servicing and Collection for Disaster Home Loans, rather than SOP 50 50 4,
Loan Servicing.

OFFICE OF INSPECTOR GENERAL RESPONSE

We believe the actions proposed by SBA on recommendations 3 through 7 are
responsive. However, we believe the Agency should establish target dates for
completing final action on each of the recommendations.

With respect to recommendation 1, we agree that disaster victims should be given
every opportunity to repay their debts. However, once a workout agreement has
been determined infeasible, the non-performing loan should be transferred to
liquidation to maximize recovery through the liquidation of collateral and
available assets. As stated in our audit report, the current SOP provides
conflicting guidance as it requires liquidation personnel to continue to negotiate
workouts even though a workout was deemed infeasible. This not only duplicates
the workout process performed during servicing, but further delays the recovery of
collateral, increasing SBA's losses due to dissipating collateral. Therefore, the
SOP should be revised to emphasize that further attempts should not be pursued if
a workout has already been explored and that enforced recovery should begin.

SBA further stated that it is currently using a more disciplined and analytical
approach for deciding when to work with the borrower or pursue liquidation,
which has resulted in a significant decline in liquidations. This new approach
provides another reason for revising the SOP. SBA should describe this method in
the SOP to clarify for staff when enforced recovery should begin. SBA also did
not provide details on how the decline in liquidations was achieved, and
consequently it is unclear whether the decline is due to keeping defaulted loans in
a workout status longer or charging off the loans — neither of which would help
SBA maximize recoveries.



                                         8
Although management agreed with recommendation 2, it did not propose any
additional actions because it believes adequate guidance and oversight already
exists to comply with the recommendation. While we agree that adequate
guidance exists, we are unable to assess whether existing oversight is sufficient to
ensure loans coded as workouts are in compliance with the guidance as
management did not provide specific details on its existing oversight practices. As
a result, we do not consider management's comments to be fully responsive and
are requesting that management provide us with specific details of its oversight
activities.

ACTIONS REQUIRED

Because SBA provided no target dates for completing proposed actions for
recommendations 3 through 7, we are requesting that target dates be provided by
June 29, 2007. We are also requesting that SBA provide details on controls in
place at the centers for ensuring loans coded as workouts comply with SBA
guidance to fully address recommendation 2. We plan to pursue a final decision
on recommendation 1 through the audit resolution process.

We appreciate the courtesies and cooperation of the Office of Financial Assistance
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 205-[Exemption 2]or Robert Hultberg, Acting Director,
Disaster Programs Group, at (202) 205-[Exemption 2].




                                         9
APPENDIX I. AUDIT OBJECTIVE, SCOPE, AND METHODOLOGY
Our audit objective was to determine if the Small Business Administration
maximized its recovery of delinquent disaster loans through collateral liquidations
and/or by referral to the U. S. Treasury. To address our audit objective, we
randomly selected five samples of secured and unsecured disaster loans from
SBA’s Loan Accounting System using a 95 percent confidence level and a 5
percent error rate. These loans were classified as charged-off, in liquidation, or
were coded as being in a workout status as of July 26, 2005. We assessed the
reliability of the information provided by the Loan Accounting System by
comparing the data in the system with original documents contained in the loan
files. We did not identify any errors that would preclude the use of the data.

We reviewed a total of 281 loan files as well as data from SBA’s information
management system. Tables 1 and 2 detail the number and size of loans in our
sample and the corresponding universe. The sample in Table 1 was used to
determine whether collateral and assets were available to pursue collection on
outstanding loan balances.
                  Table 1. Available Collateral and Assets Not Pursued
                                                  Universe                               Sample
                                      Number            Outstanding         Number           Outstanding
                                      of Loans             Balance          of Loans           Balance
  Loan Status - In Liquidation          4,536             $330,354,100        59              $3,158,558


The first sample in Table 2 was used to determine if the code for workout
agreements (Code 99) was used appropriately, and the next sample was used to
determine if the code for transferring loans to Treasury Only (Code 65) was used
properly. The final sample was used to determine if SBA transferred all the
responsible parties on legally collectible debt to Treasury.

      Table 2. Missed Collection Opportunities by Not Referring All Loans and
                          Responsible Parties to Treasury
                                                         Universe                          Sample
                                            Number            Outstanding    Number of         Outstanding
                                            of Loans            Balance       Loans               Balance
Miscoded as a Workout Agreement (99)
 Loan Status - Charged Off & Coded 99            2,957        $42,351,439          58             $1,146,804
 Loan Status - In Liquidation & Coded 99           117         11,249,692          46              5,827,135
 Total Reviewed                                  3,074        $53,601,131          104            $6,973,939

Miscoded as Treasury Offset Only(65)
 Loan Status - Charged Off & Coded 65            8,845        $77,684,591          59               $373,554

Responsible Parties Were Not Referred to Treasury
  Loan Status - Charged Off                     7,737         $83,462,601          59             $1,873,200




                                                   10
APPENDIX I. AUDIT OBJECTIVE, SCOPE, AND METHODOLOGY
We also contacted SBA personnel at Servicing Centers, the Santa Ana Liquidation
Center, District Offices, Office of Financial Assistance and Office of Chief
Information Officer. We conducted our audit from July 2005 to January 2006 in
accordance with Government Auditing Standards as prescribed by the Comptroller
General of the United States, and included such tests as we considered necessary
to provide reasonable assurance of detecting abuse or illegal acts.




                                       11
APPENDIX II. LOANS THAT WERE MISCODED 65

                                    Outstanding
                Loan Number         Loan Balance
          1   [Exemption      2]        $568
          2   [Exemption      2]      $10,185
          3   [Exemption      2]       $9,713
          4   [Exemption      2]          $0*
          5   [Exemption      2]       $6,819
          6   [Exemption      2]       $9,202
          7   [Exemption      2]       $1,327
          8   [Exemption      2]       $6,978
          9   [Exemption      2]       $1,465
         10   [Exemption      2]       $1,588
         11   [Exemption      2]       $9,516
         12   [Exemption      2]       $4,717
         13   [Exemption      2]      $20,734
         14   [Exemption      2]       $3,141
         15   [Exemption      2]        $779
         16   [Exemption      2]        $174
         17   [Exemption      2]       $2,698
         18   [Exemption      2]      $22,336
         19   [Exemption      2]      $10,389
         20   [Exemption      2]       $5,942
         21   [Exemption      2]         $21*
         22   [Exemption      2]       $2,803
         23   [Exemption      2]       $4,111
         24   [Exemption      2]      $15,121
         25   [Exemption      2]      $24,063
         26   [Exemption      2]       $8,965
         27   [Exemption      2]       $9,732
         28   [Exemption      2]        $374
         29   [Exemption      2]       $6,441
         30   [Exemption      2]         $12*
         31   [Exemption      2]       $1,896
         32   [Exemption      2]         $12*
         33   [Exemption      2]       $4,954
         34   [Exemption      2]       $1,849
         35   [Exemption      2]        $716
         36   [Exemption      2]       $1,438
         37   [Exemption      2]       $1,720
         38   [Exemption      2]       $4,921
         39   [Exemption      2]      $19,801
         40   [Exemption      2]       $4,466
         41   [Exemption      2]       $6,116
         42   [Exemption      2]      $10,222
         43   [Exemption      2]          $0*
         44   [Exemption      2]       $3,908



                               12
APPENDIX II. LOANS THAT WERE MISCODED 65

                                                         Outstanding
                           Loan Number                  Loan Balance
                 45     [Exemption       2]                $6,862
                 46     [Exemption       2]                $1,023
                 47     [Exemption       2]                $8,395
                 48     [Exemption       2]               $17,254
                 49     [Exemption       2]                  $416
                 50     [Exemption       2]                $7,751
                 51     [Exemption       2]                $1,347
                 52     [Exemption       2]               $29,939
                 53     [Exemption       2]                $9,657
                 54     [Exemption       2]                $4,054
                 55     [Exemption       2]                $2,356
                 56     [Exemption       2]                $3,096
                 57     [Exemption       2]                $1,937
                 58     [Exemption       2]                $7,385
                                Total                    $363,405


* While these were identified as exceptions in the sample, Treasury will not collect on
  amounts of $25 or less.




                                            13
APPENDIX III. LOANS WHERE ALL CO-OBLIGORS WERE NOT
TRANSFERRED TO TREASURY
                                                       Outstanding
                         Loan Number                  Loan Balance
               1     [Exemption       2]                   1,459
               2     [Exemption       2]                   1,621
               3     [Exemption       2]                   1,738
               4     [Exemption       2]                   4,054
               5     [Exemption       2]                  10,135
               6     [Exemption       2]                  10,721
               7     [Exemption       2]                   1,192
               8     [Exemption       2]                  20,901
               9     [Exemption       2]                   5,943
              10     [Exemption       2]                   7,281
              11     [Exemption       2]                   5,090
              12     [Exemption       2]                     12*
              13     [Exemption       2]                 111,610
              14     [Exemption       2]                   4,758
              15     [Exemption       2]                  10,308
              16     [Exemption       2]                   5,611
              17     [Exemption       2]                   1,662
              18     [Exemption       2]                 332,482
              19     [Exemption       2]                  20,437
              20     [Exemption       2]                   5,535
              21     [Exemption       2]                 327,440
              22     [Exemption       2]                 172,607
              23     [Exemption       2]                   2,644
              24     [Exemption       2]                   7,108
              25     [Exemption       2]                   4,825
              26     [Exemption       2]                     844
              27     [Exemption       2]                   4,119
              28     [Exemption       2]                   9,889
              29     [Exemption       2]                   1,518
              30     [Exemption       2]                   6,553
                             Total                    $1,100,097


* While these were identified as exceptions in the sample, Treasury will not collect on
  amounts of $25 or less.
APPENDIX IV. MANAGEMENT RESPONSE

                                   MEMORANDUM
                                    May 18, 2007


TO:            Debra S. Ritt
               Assistant Inspector General for Auditing

FROM:          Janet A. Tasker
               Acting Director
               Office of Financial Assistance

SUBJ:          Response to Draft Report on Audit of Liquidation of Disaster Loans

Thank you for the opportunity to review the draft audit report on SBA’s disaster loan
liquidation process. As you note, the audit work is dated and the Office of Financial
Assistance (OFA) believes it has already addressed many of the findings included in the
draft report. We have addressed the specific recommendations made in the report below.
As always, we appreciate the opportunity to work with your office to strengthen our
lending programs. Please let us know if you have any questions regarding our response.

   1. Recommendation: Revise SOP 50 51 2 to instruct liquidation staff to pursue
      liquidation of loan assets instead of servicing and workouts.

        Response: OFA do not agree that a revision of the SOP is needed or warranted.
        The disaster loan program has the mandate to assist homeowners, renters,
        businesses and nonprofit organizations that suffer damage from a declared
        disaster to recover from damage sustained and return to their pre-disaster
        condition. It has long been SBA loan servicing policy that cooperative disaster
        victims who become delinquent on their loans be given the opportunity to repay
        their debts through restructured obligations wherever possible to avoid the loss of
        properties through foreclosure or being forced into a bankruptcy filing. Even
        after a borrower has become 180 days delinquent and transferred to the Santa Ana
        National Disaster Loan Resolution Center (NDLRC), SOP 50 51 2 (Loan
        Liquidation and Acquired Property) encourages SBA staff to explore the
        possibility of a workout if feasible. This determination can be made promptly and
        if the borrower cannot or will not comply with reasonable repayment
        requirements, then enforced liquidation will be pursued. This includes evaluating
        loan collateral to determine whether there is sufficient equity to justify a
        foreclosure action and the attendant costs of such action. Repayment agreements
        with cooperative borrowers serve to maximize SBA recoveries over the long run
        and should be pursued wherever possible even if a loan has been classified in
        liquidation. If the possibility of a workout has already been adequately explored,
        then further attempts will not be pursued and enforced recovery will begin.
        However, the NDLRC is taking a more disciplined and analytical approach
        towards making determinations as to whether to work with the borrower or pursue
APPENDIX IV. MANAGEMENT RESPONSE

     liquidation. The results of this changed approach can be seen in the decline in
     loans in liquidation reported in the NDLRC. (See attached graph.) Therefore,
     OFA believes the intent of the recommendation is achieved.

  2. Recommendation: Develop and implement procedures to ensure that loans coded
     as workouts are in compliance with the requirements of 50 50 4.

     Response: We concur that SOP requirements for workouts should be followed,
     and we believe that adequate guidance and oversight now exists in the centers for
     compliance with this recommendation. However, the primary SOPs applicable to
     disaster loans in liquidation status at NDLRC are SOP 50 51 2 (Loan Liquidation
     and Acquired Property) and SOP 50 52 1 (Consumer Loan Servicing and
     Collection for Disaster Home Loans) rather than 50 50 4 (Loan Servicing). For
     disaster home loan workouts, the Birmingham and El Paso centers follow SOP 50
     52 1 criteria. The NDLRC refers to SOP 50 50 4 in the rare instances where the
     process of workouts/liquidation are not specifically covered in SOP 50 51 2. It
     should also be noted that SOP 50 50 4 primarily addresses the 7(a) loan programs,
     with only occasional references to disaster loans.

  3. Recommendation: Require Servicing and Liquidation Center staff to routinely
     review all charged-off loans designated as workouts to determine whether the
     workout designation is appropriate.

     Response: We concur with this request. Each center servicing charged-off
     accounts coded 99 will routinely review those accounts to ensure that the workout
     designation is appropriate.

  4. Recommendation: Develop and implement procedures which ensure that the
     Treasury referral code at servicing centers is left blank so that loans requiring
     both TOP and Treasury Services are referred to Treasury for collections as
     required.

     Response: We concur with this recommendation. Instructions in this regard will
     be included in the charge-off chapters of SOP 50 51 2 (Chapter 18) and SOP 50
     52 1 (Chapter 7), which will be revised to include comprehensive instructions on
     coding charged-off loans. It should be noted that there are special circumstances
     where it would be appropriate to have something other than a blank field at
     charge-off when referral to Treasury is not appropriate, such as 37 (litigation do
     not refer), 66 (real estate lien/mortgage refer to TOP / do not issue 1099C), 67
     (bankruptcy Chapter 7 or 11), 69 (bankruptcy Chapter 13) and 68 (compromised).
     The majority of loans shown in Appendix III to the draft audit were charged off
     by centers other than NDLRC or by District Offices (only 3 of the 30 loans were
     the entered into the LAUD system by the NDLRC).

     A recent database study indicated that of approximately 80,000 loans charged off
     over the past ten years, over 18,000 were coded as referral to TOP only (code 65).


                                           16
APPENDIX IV. MANAGEMENT RESPONSE

     We will instruct OCIO to remove this code on all loans charged-off more than one
     year ago so the loans will be included in Treasury servicing as well as TOP

  5. Recommendation: Develop and implement procedures to ensure that all the
     names and identification numbers of delinquent borrowers are entered into the
     PNM database and transferred to the PMT system for referral to Treasury.

     Response: Based on OFA’s assessment, it appears that all centers are doing their
     part in entering into the PNM database all the obligors associated with a loan even
     though only one of the EIN/SSN numbers may be captured through automated
     systems for transfer of information to Treasury. We are currently exploring this
     issue with OCIO and meeting with a Treasury working group to determine the
     nature of any problems and how they can be addressed. It should be noted that in
     the past 2-3 months the NDLRC has identified a number of cases where more
     than one co-obligor on the same loan has had tax refunds offset by Treasury.

  6. Recommendation: Incorporate detailed instructions for transferring charged-off
     loans to Treasury into SOP 50 50 4.

     Response: We concur that detailed instructions for transferring charged-off loans
     to Treasury should be incorporated in relevant SOPs, but as mentioned in the
     response to recommendation 4, these instructions should be included in the
     charge-off chapters of SOP 50 51 2 (Chapter 18) and SOP 50 52 1 (Chapter 7).
     They will be revised to include comprehensive instructions on coding charged-off
     loans.

     7. Recommendation: Follow up on the 88 loans that were miscoded or which did
     not identify all responsible parties to ensure that Treasury was sent the correct or
     missing information.

     Response: We concur with this recommendation. The centers will ensure that the
     loans handled by their respective offices will be recoded (where appropriate) to
     identify all responsible parties to ensure that Treasury was sent the correct or
     missing information. Also, the review noted in the response to recommendation 5
     will be continued to resolve any systems problems that need to be addressed to
     ensure referral to Treasury of all responsible parties on a loan. The centers have
     developed standard Form 327 Administrative Actions that reflect the appropriate
     LAUD code for charged off loans based on bankruptcy, secured or unsecured, etc.

     A review of the 58 loans listed in Appendix II shows that only (1) loan (Loan
     [Exemption 2]) was charged off by office 0946 (NDLRC). The remainder of
     the loans are broken down as follows:

         (24)   Birmingham/0429
         (13)   El Paso/0632



                                          17
APPENDIX IV. MANAGEMENT RESPONSE

       (16)   District Offices/Commercial Loan Centers
       (1)    Santa Ana Home Loan Servicing Center/0927 (Office closed in April
              2005)
       (2)    CDSI/ACS/1112 (Handled by Santa Ana Liquidation Office)
       (1)    Unable to identify loan number

    As to the loan in the NDLRC, the code has been changed to “00” to reflect
    referral for TOP and DMS servicing. At this time we are unable to access the (2)
    1112 or the (1) 0927 loan. When access becomes available the LAUD code will
    be left blank to reflect referral to Treasury for TOP and DMS servicing.

    A review of the 30 loans listed on Appendix III shows that only (4) loans were
    charged off by office 0946 (one on behalf of 1112).

    [Exemption 2] – names of both borrowers are in the *PML*E screen and
    loan shows ACTIVE DMS.
    [Exemption 2] – names of both borrowers are in the *PML*E screen. Loan
    was referred to Treasury and loan was PIF on 2/13/04.
    [Exemption 2] – names of both borrowers are in the *PML*E screen and
    loan shows ACTIVE DMS.
    [Exemption 2] – names of both borrowers are in the *PML*E screen.
    However, loan is not showing ACTIVE TOP or DMS SERVICING. Comments
    on companion loan [Exemption 2] indicate that the loan was returned to SBA
    by Treasury as the borrowers were determined to be indigent.




                                       18
APPENDIX IV. MANAGEMENT RESPONSE



                                                      Santa Ana Disaster Liquidation Portfolio
                                           (historical by month end, and with end of most recent week)

                  3500



                  3000



                  2500
Number of Loans




                  2000



                  1500



                  1000



                  500



                    0
                         Jan06 Feb06 Mar06 Apr06 May06 June06 July06 Aug06 Sep06 Oct06 Nov06 Dec06 Jan07 Feb07 Mar07 Apr07 May07
                                                                        Month/Year

                                                                        Disaster Loans




                                                                   19
